                                                                 E-IN-MMS-0102-2002


           United States Department of the Interior
                            Office of Inspector General
                                 Washington, D.C. 20240




                                                                          March 7, 2003

Memorandum

To:    Director, Minerals Management Service

From: Roger La Rouche
      Assistant Inspector General for Audits

Subject:   Independent Auditors’ Report on the Minerals Management Service’s
           Financial Statements for Fiscal Years 2002 and 2001 (No. 2003-I-0030)

        We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the Minerals Management Service’s (MMS) financial
statements as of September 30, 2002 and for the year then ended. The contract required
that KPMG conduct its audit in accordance with the Comptroller General of the United
States of America’s Government Auditing Standards, the Office of Management and
Budget’s Bulletin 01-02 Audit Requirements for Federal Financial Statements, and the
General Accounting Office/President’s Council on Integrity and Efficiency’s Financial
Audit Manual.

        In its audit report dated December 2, 2003 (Attachment 1), KPMG issued an
unqualified opinion on MMS’s financial statements. KPMG identified three reportable
conditions, none of which were considered to be material weaknesses, related to internal
controls and financial operations: (A) improve controls over information technology data
security, (B) improve controls over investment reconciliation’s, and (C) improve controls
over the reporting of the Strategic Petroleum Reserve. With regard to compliance with
laws and regulations, KPMG found MMS to be noncompliant with portions of the
Federal Financial Management Improvement Act (FFMIA). Specifically, KPMG reported
that MMS’s financial management systems did not substantially comply with the federal
financial management systems requirements or the United States Standard General
Ledger at the transaction level.

        In connection with the contract, we monitored the progress of the audit at key
points, reviewed KPMG’s report and selected related working papers, and inquired of its
representatives. Our review, as differentiated from an audit in accordance with the
Government Audit Standards, was not intended to enable us to express, and we do not
express, an opinion on the MMS’s financial statements, conclusions about the
effectiveness of internal controls, conclusions on whether MMS’s financial management
systems substantially complied with the three requirements of FFMIA, or conclusions on
compliance with laws and regulations. KPMG is responsible for the auditors’ report and
for the conclusions expressed in the report. Our review has disclosed no instances where
KPMG did not comply in all material respects with the Government Auditing Standards.

       In the January 6, 2003, response from the Director, MMS (Attachment 2), MMS
concurred with all the recommendations. Based on the response recommendations A, B
and C are considered resolved and implemented, and recommendations D and E are
considered resolved but not implemented. Recommendations D and E will be referred to
the Assistant Secretary for Policy, Management and Budget for tracking of
implementation.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.



Attachments (2)
                 2001 M Street, NW
                                                                                        ATTACHMENT 1
                 Washington, DC 20036




                                                        Independent Auditors’ Report


Director of Minerals Management Service and Inspector General
U.S. Department of the Interior:

We have audited the accompanying consolidated balance sheets of the Minerals Management Service
(MMS) as of September 30, 2002 and 2001, and the related statements of custodial activity for the years
then ended, and the related consolidated statement of net cost, consolidated statement of changes in net
position, combined statement of budgetary resources, and consolidated statement of financing for the year
ended September 30, 2002. The objective of our audits was to express an opinion on the fair presentation
of these financial statements. In connection with our audits, we also considered MMS’s internal control
over financial reporting and tested MMS’s compliance with certain provisions of applicable laws and
regulations that could have a direct and material effect on its financial statements.

Summary

As stated in our opinion on the financial statements, we concluded that the MMS’s consolidated balance
sheets, and the related statements of custodial activity as of and for the years ended September 30, 2002
and 2001, and the related consolidated statement of net cost, consolidated statement of changes in net
position, combined statement of budgetary resources, and consolidated statement of financing for the year
ended September 30, 2002 are presented fairly, in all material respects, in conformity with accounting
principles generally accepted in the United States of America. We did not audit the accompanying
consolidated statement of net cost for the year ended September 30, 2001, and, accordingly, we do not
express an opinion on it.

Our consideration of internal control over financial reporting resulted in the following conditions being
identified as reportable conditions:

    A. Improve Information Technology (IT) data security control weaknesses

    B. Improve controls over investment reconciliations

    C. Improve controls over the reporting of the Strategic Petroleum Reserve (SPR)

We do not consider the reportable conditions, above, to be material weaknesses.

The results of our tests of compliance with the laws and regulations, exclusive of the Federal Financial
Management Improvement Act of 1996 (FFMIA), disclosed no instances of noncompliance that are
required to be reported herein under Government Auditing Standards, issued by the Comptroller General of


                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                a member of KPMG International, a Swiss association.
the United States, or Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements
for Federal Financial Statements.

The results of our tests of FFMIA disclosed instances where MMS’s financial management systems did not
substantially comply with the federal financial management system requirements and the U.S. Standard
General Ledger at the transaction level.

The following sections discuss our opinion on MMS’s financial statements, our consideration of MMS’s
internal control over financial reporting, our tests of MMS’s compliance with certain provisions of
applicable laws and regulations, and management’s and our responsibilities.

Opinion on the Financial Statements

We have audited the accompanying consolidated balance sheets of the MMS as of September 30, 2002 and
2001, and the related statements of custodial activity for the years then ended, and the consolidated
statement of net costs, consolidated statement of changes in net position, combined statement of budgetary
resources, and consolidated statement of financing for the year ended September 30, 2002. The
accompanying consolidated statement of net cost for the year ended September 30, 2001 was not audited
by us and, accordingly, we do not express an opinion on it.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the MMS as of September 30, 2002 and 2001, and its custodial activities for the years
then ended, and its net costs, changes in net position, budgetary resources, and reconciliation of net costs to
budgetary obligations, for the year ended September 30, 2002, in conformity with accounting principles
generally accepted in the United States of America.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the financial statements, but is supplementary information required by
accounting principles generally accepted in the United States of America or OMB Bulletin No. 01-09,
Form and Content of Agency Financial Statements. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and presentation
of this information. However, we did not audit this information and, accordingly, we express no opinion on
it.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The consolidating balance sheet as of September 30, 2002 is presented for purposes of
additional analysis of the consolidated balance sheet as of September 30, 2002 rather than to present the
financial position of the MMS’s components individually. The consolidating balance sheet as of
September 30, 2002 has been subjected to the auditing procedures applied in the audit of the consolidated
balance sheet as of September 30, 2002 and, in our opinion, is fairly stated in all material respects in
relation to the consolidated balance sheet as of September 30, 2002 taken as a whole.

Internal Control Over Financial Reporting

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect MMS’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.

In our fiscal year 2002 audit, we noted the following matters involving internal control over financial
reporting and its operation that we consider to be reportable conditions. However, we do not consider these
reportable conditions to be material weaknesses.

A. Improve Information Technology Data Security Control Weaknesses

    While we have noted that MMS has made certain improvements during fiscal year 2002 in meeting the
    security policies and procedure requirements of OMB Circular A-130, Security of Federal Automated
    Information Resources, we continue to note that MMS did not have adequate information security
    policies and procedures to meet the requirements of OMB Circular A-130. OMB Circular A-130
    provides requirements to ensure adequate security for information relating to general support systems
    and major application systems. MMS also did not have effective policies and procedures to control and
    protect information systems. Specifically, we noted weaknesses in the following areas:

1. Entity-wide Security Program: MMS’s security plan did not contain all of the information required
   by OMB Circular A-130, Appendix III. Specifically, MMS did not perform an adequate risk
   assessment of the Advanced Budget/Accounting Control and Information System (ABACIS).

2. System Software Controls: MMS did not establish controls to monitor operating system activities
   and operating system security parameters have not been set for effective logging of user activity. In
   addition the security monitoring and reporting process in relation to the Minerals Revenue
   Management Financial System (MRMFS) does not include all information systems platforms and
   components.

3. Service Continuity: MMS had not conducted recent tests of its contingency plans to minimize the
   risk of unplanned interruptions and to minimize the risk of recovery of critical operations to protect
   data should interruptions occur. In relation to the MRMFS management has not performed a walk-
   through test of contingency plan scenarios, nor was there documentation of the contingency plan on
   site. Moreover, MRM has not participated in, or reviewed the results of, the test of the contingency
   plan performed by UsiNet.

4. Program Development Testing: MMS did not properly address failed general ledger test scripts
   during the migration process. While a complete list of test script failures was compiled at the time of
   conversion, there is currently no project management process in place to ensure that failures are being
   addressed in an accurate and timely manner.

Recommendation

MMS should improve controls over information technology systems to ensure adequate security and
protection of information resources. MMS should test contingency plans annually and analyze the results
once testing has been conducted. MMS should also document and implement a project plan to ensure that
each of the failed test scripts is effectively addressed and resolved.

Management’s Response

Entity-wide Security Program: This recommendation has been implemented. An independent risk
assessment of the ABACIS was completed by RGII on August 20, 2002. The cover was provided to
KPMG as evidence that an assessment had been conducted. MMS acknowledges that the assessment was
not completed by the original target date of June 30, 2002.

System Software Controls: This recommendation as it pertains to the ABACIS has been implemented. All
access to the Hewlett Packard (HP), operating platform for the ABACIS, are logged on the console.
Reports are available and MMS staff have begun monitoring these reports bi-weekly. Systems manager
capabilities are limited to only two MMS employees (located in the A&B Information Resources
Technology Division). Application development is limited to staff in Financial Management. MMS
believes that this level of monitoring is sufficient to ensure the HP operating system is not degraded by
unauthorized use.

With respect to the MRM Financial System, MMS recognizes the need to update its policies and
procedures to reflect the new Minerals Revenue Management reengineered architecture. The ITC
(Information Technology Center) recently formed an Architecture Group which includes responsibility for
such documentation. The MRM Management is in the process of documenting and implementing policies
and procedures including those for access requests, system software utilities, and SDLC methodologies.
Target completion date is September 2003. However, an influencing factor in these ongoing revisions will
be new guidance from the department and bureau level in all of these areas over the next six months.

Service Continuity: Full compliance with this recommendation is in process. MMS has documented
applicable contingency plans. As with all other DOI bureaus, MMS disabled its networks in response to the
U.S. District Court order, dated December 6, 2001. The Special Master’s IT contractor (IBM) conducted
extensive analysis and determined the MMS Gulf of Mexico Region provided the safest and most secure
site to support reconnection of the bureau’s Internet connections. MMS essentially tested its contingency
plans by realigning the entire bureau’s connections through the Gulf site. KPMG acknowledged this in the
Notice of Findings and Recommendations issued for this item.

Testing of the ABACIS contingency plans was not conducted because of firewall issues with the Office of
Surface Mining and Reclamation (manager of the contingency site). Testing was completed November 30,
2002.

USi has developed a contingency plan, but MRM management does not have immediate access to the plan.
What MMS does have is the USi contingency architecture and contingency test plan for testing
November 8-11. MMS has received the results of this test. Lessons learned in the test focused on
corrections to be made in future tests.

Accenture and USi are contractually required to provide the contingency service so the test was a key
process. In the absence of a demonstration that this service is not being provided, MMS does not see a need
to have access to the USi contingency plan which covers internal processes and procedures for failover.

Program Development Testing: This recommendation has been implemented. All failed initial test script
results and workarounds and stringent internal controls were discussed with KPMG during the audit. MMS
will document the impacts and risk assessment when a decision is made to not test or implement a
particular software feature. Note, however, that MMS has a formal documented process used to request
program modifications to the MRM Financial System (System Investigation Request [SIR]). The request
process must be documented, approved by the requesting supervisor and submitted to the contracting
officer’s technical representative for final approval. All SIRs are prioritized by MRM management and
worked by the contractor as resources are available. The SIRs are tracked and monitored by MRM and the
contractor to ensure completion of critical system modifications. Completion entails contractor system test,
MRM review of system testing, MRM testing of the change(s), and MRM approval prior to production
implementation. Additionally, MRM has acquired contractor resources to resolve general ledger problems
for which a workaround was not identified.

B. Improve Controls Over Investment Reconciliations
   We noted that quarterly reconciliations of investments held in the Environmental Improvement and
   Restoration Fund (EIRF) are not effectively performed to ensure that balances recorded in the general
   ledger agree to those reported by Treasury. In addition, certifications of investments balances to
   Treasury are not timely.

Recommendation

We recommend that management improve the reconciliation process to require periodic reconciliation of
the amounts reported by Treasury to the general ledger. We also recommend that management implement
policies that ensure Treasury certifications are performed within a reasonable time from the availability of
information from Treasury.

Management’s Response

This recommendation has been implemented. MMS procedures have been modified to require
reconciliation of investment activity between the Treasury balances and the MRMFS general ledger. The
General Ledger team supervisor reviews and confirms the reconciliation and certification process. The
delays in performing the Treasury certifications were due to the internet shutdown and workloads
associated with the resultant backlogs.

C. Improve controls over the reporting of the Strategic Petroleum Reserve

    We noted that calculations of Strategic Petroleum Reserve (SPR) amounts are not sufficiently reviewed
    to ensure an accurate calculation and recording of SPR amounts. During our test-work over the amount
    of recorded SPR collections, we noted that for the September calculation, incorrect Platts prices were
    used when valuing the SPR. Instead of using the September Platts prices, October prices were
    inadvertently used. The impact of using the incorrect Platts price was an overstatement of SPR
    Revenue and related Disposition of Revenue on the Statement of Custodial Activity by approximately
    $2.8 million.

Recommendation

We recommend that management improve the management review of the SPR calculation process to
ensure accurate recording of the SPR.

Management’s Response

This recommendation has been implemented. MMS agrees with the spirit of the finding and
recommendation, and has instituted an added quality assurance/quality control procedure to provide an
independent review of all data and calculations used to arrive at the valuation of the wellhead crude oil
volumes involved in the Strategic Petroleum Reserve (SPR) fill initiative. Additionally, MMS is tasking
the Royalty-In-Kind (RIK) systems integrator contractor, Accenture LLP, with supporting the valuation of
SPR wellhead crude oil volumes through the upcoming RIK oil management system implementation.

A summary of the status of prior year reportable conditions is included as Exhibit I. We also noted other
matters involving internal control over financial reporting and its operation that we have reported to the
management of MMS in a separate letter.
Compliance with Laws and Regulations

The results of our tests of compliance with certain provisions of laws and regulations described in the
Responsibilities section of this report, exclusive of FFMIA, disclosed no instances of noncompliance that
are required to be reported herein under Government Auditing Standards or OMB Bulletin No. 01-02.

The results of our tests of FFMIA disclosed instances, described below, where MMS’s financial
management systems did not substantially comply with the federal financial management systems
requirements and the U.S. Standard General Ledger at the transaction level.

D. Federal Financial Management System Requirements

   As previously discussed in the Internal Control Over Financial Reporting section of this report, MMS
   did not have adequate information security policies and procedures to meet the federal financial
   management system requirements of FFMIA.

Recommendation

We recommend that management improve controls over information technology systems to ensure
adequate security and protection of information resources and to meet the requirements of FFMIA.

Management’s Response

MMS acknowledges deficiencies with respect to written security policies and procedures and has awarded
a contract to SAIC to review and ensure MMS’s full compliance with OMB Circular A-130 (also reference
internal control response above). This effort will be completed by December 2003.

E. U.S. Standard General Ledger at the Transaction Level

   The Minerals Revenue Management Financial System (MRMFS) is not in full compliance with
   FFMIA requirements in relation to the U.S. Standard General Ledger at the transaction level. During
   our test-work, we noted the following:

      •     Approximately 30 non-standard journal entries were required to be posted in order to produce
            a complete trial balance.
      •     Accounting posting models, SGL accounts, and attributes are not consistent with Treasury
            standard models and the Department of the Interior (DOI) chart of accounts. For example,
            custodial revenue accounts 5740 and 5745 in the MRMFS system are not consistent with DOI
            guidance and must be converted to 5900 and 5990, respectively for reporting purposes. We
            also noted that posting requirements for general receipt accounts are not being used. These
            deficiencies, as well as other posting issues, required conversion of the data by SGL account
            for upload into the DOI reporting system.
      •     Insufficient pre-established posting models exist to meet MRM’s mission needs. We noted, for
            example, that there are not pre-established posting models to record investment activity,
            transfers of cash between federal and Indian business units, bonus money received on lease
            sales, and refunds.
      •     System inability to properly post trading partner information that complicated and delayed the
            eliminations process between MMS and its trading partners.
Recommendation

We recommend that management develop and implement a corrective action plan to ensure that the
MRMFS is developed to the extent necessary to meet the U.S. Standard General Ledger at the transaction
level requirements of FFMIA.

Management’s Response

MMS acknowledges that additional work is needed for full-compliance with this section of the FFMIA.
System Investigation Requests (SIRs) have or will be documented to modify the accounting models to
meet the U.S. Standard General Ledger transactional level requirements of FFMIA. Target completion date
is June 30, 2003.

The results of our tests of FFMIA disclosed no instances in which the MMS financial management systems
did not substantially comply with the federal accounting standards.

Responsibilities

Management’s Responsibilities

The Government Management Reform Act of 1994 (GMRA) requires each federal agency to report
annually to Congress on its financial status and any other information needed to fairly present its financial
position and results of operations. To assist the Department of the Interior in meeting the GMRA reporting
requirements, MMS prepares annual financial statements.

Management is responsible for:
      • Preparing the financial statements in conformity with accounting principles generally accepted
         in the United States of America;

        •   Establishing and maintaining internal controls over financial reporting, and preparation of the
            Management’s Discussion and Analysis (including the performance measures);

        •   Complying with laws and regulations, including FFMIA.

In fulfilling this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies. Because of inherent limitations in internal control,
misstatements, due to error or fraud may nevertheless occur and not be detected.

Auditors’ Responsibilities

Our responsibility is to express an opinion on the consolidated balance sheets of the MMS as of
September 30, 2002 and 2001, and the related statements of custodial activity for the years then ended, and
the related consolidated statement of net cost, consolidated statement of changes in net position, combined
statement of budgetary resources, and consolidated statement of financing for the year ended
September 30, 2002 based on our audits. We conducted our audits in accordance with auditing standards
generally accepted in the United States of America, the standards applicable to financial audits contained in
Government Auditing Standards and OMB Bulletin No. 01-02. Those standards and OMB Bulletin No. 01-
02 require that we plan and perform the audits to obtain reasonable assurance about whether the financial
statements referred to above are free of material misstatement.
An audit includes:
       • Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
            statements;

        •   Assessing the accounting principles used and significant estimates made by management; and

        •   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our audits, we considered MMS’s internal control over financial reporting by
obtaining an understanding of the MMS’s internal control, determining whether internal controls had been
placed in operation, assessing control risk, and performing tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02 and Government Auditing Standards. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of
our audit was not to provide assurance on internal control over financial reporting. Consequently, we do
not provide an opinion thereon.

As required by OMB Bulletin No. 01-02, with respect to internal control related to performance measures
determined by management to be key and reported in the Management’s Discussion and Analysis, we
obtained an understanding of the design of significant internal controls relating to the existence and
completeness assertions. Our procedures were not designed to provide assurance on internal control over
performance measures and, accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether MMS’s financial statements are free of material
misstatement, we performed tests of MMS’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 01-02, including certain provisions referred to in FFMIA. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws and
regulations applicable to MMS. Providing an opinion on compliance with laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether MMS’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

Distribution

This report is intended for the information and use of Department of the Interior’s management,
Department of the Interior’s Office of the Inspector General, OMB and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




December 2, 2002
                                                                                            Exhibit I

                              Minerals Management Service
                         Summary of the Status of Prior Year Findings
                                    September 30, 2002


Ref                      Condition Area                                     Status

01-A   MMS did not have adequate information security        While MMS has made some
       policies and procedures to meet requirements of OMB   progress in addressing this issue, it
       Circular A130, Security of Federal Automated          has not fully corrected the
       Information Resources.                                condition related to Entity-wide
                                                             Security Program, Access Controls,
                                                             System Software Controls, Service
                                                             Continuity.

01-B   Improve Controls Over Year-end Accounts Payable Substantial progress has been made
       and Accounts Receivable Accrual Process         by MMS in addressing this issue
                                                       and it is no longer considered a
                                                       reportable condition.

01-C   Compliance with Laws and Regulations: Prompt          Substantial progress has been made
       Payment Act                                           by MMS in addressing this issue
                                                             and it is no longer considered a
                                                             reportable condition.

01-D   Compliance with Laws and Regulations: FFMIA           Substantial progress has been made
                                                             in addressing this issue and it is no
                                                             longer considered a reportable
                                                             condition in relation to the prior
                                                             year finding. We did, however,
                                                             identify     non-compliance      with
                                                             system requirements and the U.S.
                                                             SGL at the transaction level for the
                                                             MRMFS system implemented in
                                                             the current fiscal year. The finding
                                                             in our current report is not related
                                                             to the prior year non-compliance.
ATTACHMENT 2
